WAIVER
RECE:VID
SUPREME COURT OF THE UNITED STATES

JUL 2 1 2021
L
OFFICE OF THE CERK
SUPREME COURT, U.S.

No. 20-8476
Mark Brnovich

Scott Charles Bauer
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

0

Signature:
Date:

7/14/20

(Type or print) Name J.D. Nielsen

0 Mr.

Ms.

0 Mrs.

Firm

Office of the Arizona Attorney General

Address

2005 N. Central Ave.

City & State

Phoenix, AZ

Phone

(602) 542-8588

0 Miss

Zip 85004
Email Jim.Nielsen@azag.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Scott Charles Bauer, #297583
ASPC Florence
P.O. Box 8400
Florence, AZ 85132

